                             CLOSEOUT FOR M-94110038




The complainant explained that she worked in the Department a7 the institution. The letter was a
photocopy of an original letter to
                                the institution. The complainant
-   -
                                 of the Department, was "seducing graduate students under his
care," and thatthe "immoral Department [had] a long history of even more unholy acts." The
complainant alleged that four other sub'ects affiliated with the De artrnent were sexually harassing
                   Subject #                 2                 z -ubject                     #4,m
                 , and subject #5,                             , "all seduce gra uate students who
were directly under their supervision." The complainant rther stated that copies of this letter
would be sent to all granting agencies that supported the Department if the institution did not
conduct an investigation and "fire these Professors."

        Accompanying the letter was a photocopy of a note (author unknown) that was apparently
produced from letters and words cut from magazines or newspapers. The note alleged that subject
#1 had been sexually harassing one named female student as well as many other unnamed students
in the Department.

        NSF investigates allegations of misconduct in science "in proposing, carrying out, or
reporting results from activities hnded by NSF" (45 C.F.R. part 689.1) OIG reviewed NSF's files
and determined that none of the subjects received NSF support at this time. Subject #2 never
applied for or received any NSF support. Subjects #1 and #3 have had no NSF support for ten and
eighteen years, respectively. Subjects #4 and #5 received NSF equipment grants that concluded
over two years before OIG received the complainant's allegations.

        The complainant's letter did not state that the alleged misconduct occurred in connection
with NSF-supported activities. OIG was unable to make a connection between the complainant's
allegations of misconduct and any recent NSF support to the subjects that would involve work
with students.

        This inquiry is closed and no further action will be taken

cc: Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                       Page 1 of 1                                    M94-3 8
